(fk
i I

-i

VWi i

No.

flip

IN THE

Supremo Court, U.S.
PILED

HAY 2 3 2013
OFFICE OF THE CLERK

SUPREME COURT OF THE
UNITED STATES
Leslie Moore Mira,
Petitioner,
v.
Argus Media, John Demopoulos, Ian Michael
Stewart, Miles Wiegel,
Respondents.

On Petition For Writ Of Certiorari To
The United States Court Of Appeals For The
Second Circuit
PETITION FOR WRIT OF CERTIORARI
Leslie Moore Mira
Pro Se Petitioner
PO Box 250379
New York, NY 10025
347-425-2578
leslie9087@yahoo.com

QUESTIONS PRESENTED
An estimated 10 million or 4% of US
internet users have been threatened with or
experienced the posting of explicit intimate
images without their consent. The consequences
for the subject can devastate and create extreme
emotional distress.
Forty-five states and Washington, DC,
have enacted or proposed laws penalizing the
nonconsensual dissemination of sexually
graphic images.
Questions presented are:
Does such misconduct by an employer constitute
a Title VII violation and create a prima facie
hostile and discriminatory workplace?
Did the Second Circuit and district court err in
case dismissal?

11

TABLE OF CONTENTS
QUESTIONS PRESENTED

l

TABLE OF AUTHORITIES

IV

OPINIONS BELOW...........

1

JURISDICTION

1

INTRODUCTION

1

STATEMENT OF THE CASE

5

PROCEEDINGS BELOW

7

REASONS FOR GRANTING THE PETITION
A. This Case Presents Opening for This
Court to Recognize Employer's Malicious
Use of Social Media................................... 8
B. A Plausible Conflict of Interest May Have
12
Hindered Fair Hearing
C. District Court Overlooked and Prohibited
Facts and Evidence Supportive of
16
Claims
CONCLUSION

24

APPENDIX
Denial of Motion for Reconsideration en banc,
Mira v. Argus Media
(2nd Cir., January 18, 2019)
App. 1

Ill

Dismissal, Mira v. Argus Media
(2nd Cir., September 25, 2018)...

App. 3

Order, S.D. New York
(entered May 25, 2017)...............

App. 5

IV

TABLE OF AUTHORITIES
CASES
Ashcroft v. Iqbal, 556 US 662 (2009)......

18

Carson v. Hudson, No. 09-3514 (6th Cir.
2011).............................................................

.11

City ofNewport v. Fact Concerts, 453 US 247
11
(1981).............................................................
Conley v. Gibson, 355 US 41 (1957)..........

23

Erickson v. Pardus, 551 US 89 (2007).....

22

Haines v. Kerner, 404 US 519 (1971).......

23

Kyllo v. US, 533 US 27 (2001)...................

4, 18

Mira v. Kingston, 0-16-cv04080 (2nd Cir.
2017) ............................................................. 2, 14
Neitzke v. Williams, 490 U.S. 319, 325 (1989) ..3
Quince Orchard Valley Citizens Ass’n. Inv. v.
23
Hodel, 872 F. 2d 75 (4th Circuit 1989)
US v. Osinger, 753 F. 3d 939
(9th Cir. 2014)........................

9, 11

US v. Petrovic, 701 F. 3d 849
(8th Cir. 2012)........................

10, 11

US v. Sayer, 748 F. 3d 425
(8th Cir. 2014)........................

10, 11

V

Vermont v. Van Buren (Vermont Supreme
8, 9, 18
Court, No. 2016-253)
STATUTES AND RULES
Cannon 2 of the Guide to Judiciary Policy...... 15
Rule 3 of Federal Rules of
Appellate Procedure
Title VII

13
6, 7, 11,18, 19

OTHER RELEVANT STATUTES
Alabama,
https://legiscan.com/AL/text/SB301/2017
Alaska,
httpsV/codes.findlaw.com/ak/title-11-criminalla w/ak-st- sect-11 - 61 -120.html
Colorado,
http://www.leg.state.co.us/clics/clics2014a/csl.ns
f/fsbillcont3/B8622059E18D26C687257C9A005
794F0?open&file=1378_enr.pdf
Connecticut,
https://www.cga.ct.gov/2015/act/pa/pdf/2015PA00213-R00HB-06921-PA.pdf

VI

Georgia,
httpV/www.legis.ga.gov/Legislation/20132014/1
43392.pdf
Indiana,
http://iga.in.gov/legislative/2019/bills/senate/24
3#document-02df8018
Maryland,
http ://mgaleg. maryland. gov/2014RS/bills/hb/hb
0043E.pdf
Michigan,
http ://www. legislature. mi. gov/ documents/2 015 2016/billenrolled/Senate/pd£/2015-SNB0508.pdf
Oregon,
https://olis.leg.state.or.us/liz/2015Rl/Downloads
/MeasureDocument/SB 188/Enrolled
Texas,
https://capitol.texas.gov/tlodocs/84R/billtext/pdf/
SB01135F.pd£#navpanes=0
Washington, DC.,
http://lims.dccouncil.us/Download/32304/B200903-Engrossment.pdf
For updates, please see:

Vll

https V/ ww w. cybercivilrights .or g/revenge - porn laws/
(Links last visited May 21, 2019)

1

PETITION FOR WRIT OF CERTIORARI
Leslie Moore Mira, proceeding pro se,
respectfully petitions for a writ of certiorari to
review the order of the U.S. Court of Appeals for
the Second Circuit.
OPINIONS BELOW
The mandate from the U.S. Court of
Appeals for the Second Circuit in 17-1929-cv was
entered January 25, 2019. App. 1. The petitioner
filed a timely en banc motion for reconsideration.
The motion was denied. A May 16, 2017 order of
the US Southern District Court of New York
closed the case without granting discovery. The
order was entered May 25, 2017. App. 2.
JURISDICTION
Petitioner timely requested an extension
to file her petition for a writ of certiorari from
this Court, which granted an extension up to and
including May 23, 2019. This Court’s jurisdiction
is invoked under 28 U.S.C. § 1254(l).
INTRODUCTION
This case concerns the nonconsensual
internet dissemination and taking of sexually
explicit images and other extreme invasions of
privacy to harass and humiliate. Respondents

2

(collectively, Argus) conspired with and abetted
other parties to take and access highly intimate
images of the Petitioner and illicitly eavesdrop
on her personal communications. In a textbook
case of retaliation, Argus terminated her less
than a week after she objected to sexual
misconduct.
In contravention of this
Court’s
commitment to privacy in the digital era and
accumulating federal and state court rulings
against cyberharassment, the Second Circuit
affirmed the district court’s dismissal of Mira v.
Argus Media, as it did in the inextricably linked
Leslie Moore Mira v. John Kingston, et. al., No.
17-1640, which shares overlapping facts.1 The
Second Circuit thus has twice dismissed
allegations of hostile cybersexual acts even as
other courts recognize such malicious acts.
Rather than extend liberal construction to
pro se pleadings, per this Court’s long-standing
instruction, the district court’s opinions showed
solicitude
to
professionally
counseled
1 Petitioner submitted a petition for writ for certiorari
before this Court on June 1, 2018 in Mira v. Kingston.
On October 1, 2018 the Court denied it. The SDNY
earlier denied Plaintiffs request to consolidate the two
cases.

3

Defendants. It overlooked facts and full context
that supported Petitioner’s claims of a hostile
and discriminatory work environment and
retaliatory dismissal. It barred her from
submitting evidence in a proposed amended
complaint while applying a higher summary
judgment standard for evidence at a pleading
stage, then concluded claims were “entirely
conclusory.” It foreclosed opportunity for
discovery.
The Second Circuit upheld the district
court’s dismissal in a ruling conspicuously
absent of reasoned argument specific to facts and
allegations in Mira v. Argus Media. The circuit’s
sole case citation was Neitzke v. Williams, 490
U.S. 319, 325 (1989), a case centered on the
federal in forma pauperis statute. Unlike the
party in Williams, this Petitioner paid all related
court fees.2
The circuit’s ruling is incompatible with
clear opposition from courts and swaths of
society to nonconsensual dissemination of

2 Petitioner’s motion for reconsideration to the Second
Circuit stated she was not an IFP litigant. Petitioner
paid court fees, per a court docket No. 3 on December 23,
2015. (An erroneous court note of January 16, 2016
suggested she did not pay the court fee.

4

explicit private images. The ruling signals
permission for other employers in this circuit to
engage in similar misconduct. While this civil
action does not involve allegations of police
searches, a reasonable comparison exists
between it and this Court’s holdings on intrusive
extremes. As Justice Scalia stated in Kyllo v. US,
533 US 27, 2001, which found that thermal
imaging of a home was unlawful, “there is a
ready criterion, with roots deep in the common
law, of the minimal expectation of privacy that
exists, and that is acknowledged to be
reasonable.” The Justice Scalia-written majority
opinion held that this Court draws a line at the
inside of a home that is “not only firm but also
bright.”
The digital era and popularity of social
media do not undo fundamental expectations of
privacy and what Supreme Court Justice Louis
Brandeis called the “right to be let alone.” This
apparent case of first impression3 provides this
Court with the “special justification” to remand
Mira v. Argus Media and join other circuits,
multiple state courts and legislatures that
3 Petitioner is unaware of another case that concerns
Title VII, employers and the nonconsensual
dissemination of explicit images.

5

condemn parties who engage in the
nonconsensual dissemination of explicit private
images and recording of a subject.
Procedural threshold issues are whether
the two courts unjustly overlooked evidence
supportive of the Petitioner’s pleadings and
whether the circuit court overlooked a plausible
conflict of interest between the district court and
a party related to the proceeding. The circuit’s
silence on a district court’s barring a pro se
Plaintiff from submitting evidence in a proposed
amended complaint permits a future court to
foreclose due process. Such restriction further
contradicts this Court’s liberal allowance for pro
se pleadings.
This case involves substantial questions of
misconduct. Certiorari is essential to reverse
lower courts’ decisions that, if allowed to stand,
would permit adverse acts to prevail and assent
to future ones.
STATEMENT OF THE CASE
Leslie Moore Mira worked full-time as a
reporter at oil price reporting agency Argus
Media. Her previous employment at fellow oil
price agency and co-conspirator Platts ended in
constructive discharge after a series of adverse

6

employer actions including illicit eavesdropping
on her personal communications, the taking and
dissemination of intimate images of her, and the
inveigling of federal and local authorities to
investigate her on manufactured pretenses.4
Calculated acts of slander, cyberharassment and
interference by Platts in her business relations
with Argus overlapped with adverse acts at
Argus.5 (See Mira v. Kingston petition.)
Argus Respondents were complicit in acts
of voyeurism and nonconsensual image-taking
and dissemination. They made explicit taunting
remarks to her about her personal and intimate
life. An Argus co-worker’s work computer screen
bore interior images of the Petitioner’s bedroom.
Job evaluations of Petitioner’s work were erratic
throughout her employment there. She was
terminated by Argus less than a week after
engaging in Title VII protected activity of
objecting to sexual misconduct against her.

4 The two companies have held US and other
government contracts and are dominant in price
reporting of oil and other commodities. They periodically
confer to discuss business.
5 Kingston defendants affirmed their efforts in arranging
parties to have Petitioner photographed in her private
life without her consent starting in 2012 if not prior.

7

PROCEEDINGS BELOW
1. Petitioner filed suit December 22, 2015
in the Southern District Court of New York as a
pro se litigant after receiving a notice of right to
sue from the US EEOC. Petitioner’s pro se
claims included violations of Title VII and the
New York State and New York City Human
Rights Laws.
Pursuant to SDNY practice that permits
mediation, Petitioner asked the district court
that parties be permitted to mediate. She
presented evidence that Argus earlier expressed
desire for settlement and conciliation. It did not
respond to the request.
2. In a March 29, 2017 opinion, the district
court stated that it would permit Petitioner to
submit a proposed amended complaint, though
without attachments or affidavits. Petitioner
complied. A May 16, 2017 district court order
signed by the court clerk on May 25, 2017 denied
Petitioner’s proposed amended complaint and
closed the case.
3. On appeal, the Second Circuit Court of
Appeals affirmed the district court’s order. The
circuit court denied Petitioner’s motion for en
banc reconsideration on January 25, 2019.

8

REASONS FOR GRANTING THE PETITION
A. This Case Presents Opening for This
Court to Recognize Employer's Malicious
Use of Social Media
This petition may comprise a case of first
impression for this Court: Respondents’
complicity in outrageous acts of off-site
voyeurism and aggressive deployment of
internet use and other methods to humiliate and
intimidate an employee. Such acts can indelibly
harm. The nonconsensual dissemination of
graphic images, colloquially called “revenge
porn,” may “haunt victims throughout their
lives,” Vermont v. Van Buren (Vermont Supreme
Court, No. 2016-253).
That court characterized nonconsensual
dissemination
of
intimate
images
as
“widespread,” citing a poll that estimates about
4% of US internet users, or about 10.4 million
users, “have been threatened with or
experienced the posting of explicit images
without their consent,” while 2% of internet
users have had a sexually explicit image of
themselves posted online, citing Vermont.6 The
6 That court cites Data & Society, “New Report Shows
That 4% of U.S. Internet Users Have Been a Victim of
‘Revenge Porn,’ ” (Dec. 13, 2016),

9

personal consequences of such profound
personal violation and humiliation generally
include, at a minimum, extreme emotional
distress...the posted images can lead employers
to fire victims,” Vermont, which notes
documented cases of suicide related to “revenge
porn.” Legal experts on nonconsensual sexually
graphic images argue that “cyberspace enables
the amplification and aggregation of harm,”
citing University of Miami law school professor
Mary Anne Franks,
The Banality of
Cyberdiscrimination, or, the Eternal Recurrence
of September, Denver Law Review Online, Vol.
87, 2010.7 Forty-five states and Washington, DC,
have either enacted or proposed laws penalizing
the nonconsensual dissemination of sexually
graphic images. (A proposed bill is pending in
the state of New York.)
Other circuits have ruled on the
egregiously wrong act of nonconsensual
https V/datasocietv.net/blog/2016/12/13/nonconsensualimage-sharing/ Data & Society polled 3,002 US internet
users and cites a 2% margin of error.
7 To Franks’ point, a waiter in a restaurant near
Petitioner's home in December 2015 told Petitioner “you
look good in the pictures,” with apparent aim of
discomfiting. Identifying information can be provided
upon remand.

10

dissemination of graphic images. The Ninth
Circuit in US v. Osinger, 753 F. 3d 939 (2014)
upheld a defendant's sentence, finding that his
threatening messages and the “sexually explicit
photographs [he sent] to V.B.'s co-workers and
friends unquestionably evinced [his] intent to
harass and intimidate V.B. and to cause
substantial emotional distress.” The Eighth
Circuit did likewise in US v. Sayer 748 F. 3d 425
(2014) in which acts included cyberstalking and
nonconsensual graphic image-posting and US v.
Petrovic, 701 F 3d 849, affirming the conviction
of a defendant who web-posted sexually explicit
images of a woman whom he had dated.
States and cities have passed laws
banning such acts but cases can be difficult to
litigate without effective discovery. “For victims,
fighting against such attacks can take years and
prove costly. In [one] case, the ordeal came to an
end of sorts when she reached a legal settlement
last summer, more than six years after it began,”
Niraj Chokshi, The New York Times, “How to
Fight Back Against Revenge Porn” May 18,
2017. Related laws “vary in their effectiveness
and many are not particularly helpful for victims
who find themselves in wholly different
circumstances than...rare, clear-cut cases,”

11

Lauren Evans, Jezebel, “ Why it’s so Hard to
Make Revenge Porn Laws Effective,” November
16, 2017.
Harassment is violative of Title VII and is
“unwelcome conduct” based on sex, race, color,
and national origin, according to the US EEOC.
It becomes “unlawful where 1.) enduring the
offensive conduct becomes a condition of
continued employment or 2.) the conduct is
severe or pervasive enough to create a work
environment that a reasonable person would
consider intimidating, hostile or abusive,” citing
the EEOC.8
The novelty of the legal issues here—
employer complicity in nonconsensual posting of
images—”counsels
sexually
explicit
unconstricted review," City of Newport v. Fact
Concerts, 453 (US 247-S. Ct. 1981), still binding
and Carson v. Hudson, No. 09-3514 (6th Cir.
2011). While direct comparison of this civil
complaint with US v. Osinger, Sayer and
Petrovic is imperfect, nonconsensual graphic
image dissemination without consent unites
them. The Second Circuit’s terse dismissal of
such misconduct in a civil action, which entails

httpsV/www. eeoc.gov/laws/tvpes/harassment.cfm

12

less onerous evidentiary demands than a
criminal case, diminishes the harms that other
circuits and state courts recognize. If remanded,
this case would proceed to discovery and
depositions. It would face an evidentiary bar well
below that of criminal cases successfully
prosecuted elsewhere.
This Petition is worthy of certiorari to
send a clear message that employer engagement
in
the
taking
and dissemination
of
nonconsensual highly graphic images is
impermissible and qualifies as hostile and
discriminatory conduct. Dismissal days after
objecting is a clear-cut case of retaliation.
B. A Plausible Conflict of Interest May Have
Hindered Fair Hearing
The circuit’s cursory dismissal suggests it
did not review this case at all, let alone consider
its merits. The dismissal is distinct in its brevity
and omission of reasoned argument compared to
the mass of summary orders and decisions it
typically issues. No legal argument anchored
dismissal. It provides no explanation for its
conclusory finding that the case lacks “an
arguable basis either in law or in fact.”
Petitioner’s timely motion for en banc
reconsideration was denied.

13

The Honorable Richard Sullivan presided
over Mira v. Argus Media in the district court.
He joined the Second Circuit court on October
11, 2018. Petitioner appreciates whatever mild
awkwardness a review of a decision by a fellow
(or pending) appellate judge may have arisen for
the circuit court. The circuit’s chief judge has
publicly spoken of the circuit’s premium on
collegiality and disfavor of en banc proceedings:
“I think that one of the reasons that our court is
so collegial is that we don't go en banc that much
because there's often a lot of heat in en banc
proceedings,” citing Chief Judge Robert
Katzmann, August 2014 C-Span interview. It is
plausible that court culture implicitly deterred
the Second Circuit from reversing a colleague’s
opinion, thus denying proper hearing. “The
multi-member court is a social environment, and
judges are not exempt from the pressure to
conform that other human beings experience,”
citing the Honorable Bernice Donald, US Court
of Appeals for the Sixth Circuit, Reflections on
Collegiality and Dissent in Multi Mem her
Courts.9 Yet under Rule 3 of Federal Rules of
9 The University ofMemphis Law Review, Vol. 47. No
date noted.
https V/www. memphis.edu/law/documents/donald.pdf

14

Appellate Procedure, litigants are entitled by
right to appeal.
Such deference can lead to “judges voting
against their own ‘legal consciences’” in some
cases, citing Judge Donald. “It could be that this
outcome is inevitable in the appellate judicial
context...but it is also possible that this outcome
means that the people are not always getting
from judges what they have a right to expect,
and what judges are best equipped to give: their
judgment as to what the law says and requires,”
citing Judge Donald.
Separately, it is plausible that the district
court has had a social relationship with a
Defendant in the inextricably linked Mira v.
Kingston. The presiding judge and the
Defendant were schoolmates (classes of 1982
and 1984, respectively) at Chaminade High
School in Mineola, New York, according to online
biographies.10 That Defendant, identified in
pleadings before the district court, and Judge
Sullivan have each remained active in alumni
events at the private school, according to past
school web postings. The Defendant and his
family have served on Chaminade's “law
10 The Platts/S&P Global Defendant-Respondent referred
to here is Kevin Saville.

15

enforcement” alumni committee. Judge Sullivan
was an assistant US Attorney and named
Federal
Law
Enforcement
Association's
Prosecutor of the Year. It is reasonable to infer
that the Defendant and his family and Judge
Sullivan are socially acquainted. Defendants in
the two cases, Mira v. Kingston and Mira v.
Argus Media, engaged in gross if not felonious
misconduct. With retaliatory motive, Kingston
parties attempted to inveigle federal and other
authorities to investigate Petitioner and other
harms.
Cannon 2 of the Guide to Judiciary Policy
holds that a judge “should avoid impropriety and
the appearance of impropriety in all
[activities...A judicial employee should not
allow family, social, or other relationships to
influence official conduct or judgment. A judicial
employee should not lend the prestige of the
office to advance or to appear to advance the
private interests of others.”
It is plausible that the Second Circuit’s
review of an opinion written by a future and
now-sitting appellate judge, situated in a milieu
that eschews dissent (citing Katzmann),
impeded fair review. And it is plausible that the
district court has had a social or past

16

professional acquaintanceship with a Defendant
inextricably related to this case.
C. District Court Overlooked Facts and
Prohibited Evidence Supportive of Claims
Evidence in this case points to Petitioner’s
retaliatory termination from Argus: temporal
proximity of less than a week after she objected
in an email to misconduct against her. Such
blatant timing at the least raises a triable issue
for a jury. Yet in an example of illiberal
construction of pro se pleadings, neither court
acknowledged the compelling facts that support
a prima facie retaliation claim. Rather, the
district court conflated her termination with her
other claims of discrimination: “The proposed
amended complaint alleges no new facts that
come close to suggesting that Mira was
terminated because she is a woman or is
Mexican-American.” App. 28. But Petitioner’s
pleadings presented her termination as an
adverse act of retaliation, not discrimination. It
is common for courts and juries to find in favor
of retaliation claims while other claims may fall
short of persuasion. This district court chose to

17

discard all claims.11 Pro se pleadings, however
inartful, presented a compelling case of
retaliation situated within a hostile and
discriminatory environment.
The district court’s directive to exclude
evidence in a proposed amended complaint
further prejudiced the Plaintiff. Evidence would
have had no adverse effect on the fairness of the
proceeding. Facts and allegations that Petitioner
could document, such as a letter supportive of
erratic job feedback, were not allowed in her
proposed amended complaint.
The two courts also erred by overlooking
facts and circumstances of illicit conduct against
Petitioner so disturbing that she contacted the
Manhattan DA's office. Despite its prosecutorial
background and in sharp conflict with other
courts and state legislatures, the district court
here minimized acts of voyeurism and
nonconsensual image-taking and dissemination
of intimate images as propagation of
“embarrassing video” and elsewhere as “vaguely
offensive, but certainly not physically

11 Pro se Petitioner does not waive claims or arguments
unaddressed here. She aims to distill arguments before
this Court.

18

threatening,” and conspicuously omitting Title
VII implications.
Court blitheness indicates unawareness of
how indelible social media images can alter a
person's professional and personal life. As
argued, lawmakers and numerous judges
recognize the wrongs of nonconsensual
dissemination (and nonconsensual photo-taking)
of intimate images. Nonconsensual pornography
“posted online can be a significant obstacle to
getting a job,” Vermont. “Moreover, the
widespread dissemination of these images can
lead to harassment, extortion, unwelcome sexual
attention, and threats of violence,” Vermont,
citing Danielle Citron and Franks. In discord
with this Court’s view of “expectations of privacy
that society recognizes as reasonable,” citing
Kyllo, the district court found Defendants’
complicity
of
illicit
surveillance
and
intrusiveness only “vaguely offensive.”
Taking all her pro se pleadings “as a
whole” as a court must (Ashcroft v. Iqbal, 556 US
662 (2009)), Petitioner identified parties, places
and dates and strong inferences of how she came
to be sexualized in the office unlike male
colleagues—details sufficient to survive a
motion to dismiss—and triable issues for a jury

19

to determine. But rather than extend solicitude
to a pro se litigants’ pleadings, as it is obliged to
do, the district court consistently overlooked
supported claims. For example, it dismissed
unlikely non sequitur comments from a top
Argus official directed to the Petitioner about
how she planned to draw her bedroom curtains
to not show New Yorkers her unclothed body as
a “self-deprecating” remark (citing court’s March
29, 2017 opinion).12 Such non sequitur comments
were implausible but for the dissemination of
graphic images of Petitioner and the online
sexualization of her. In contravention of this
Court’s Desert Palace, Inc. v. Costa (539 US
2003) that holds that direct evidence of
discrimination is not required for a Title VII
plaintiff to obtain a mixed-motive trial jury
instruction. And it overlooked corroboration of
organized methods to harass Petitioner from coworkers. The district court failed to address the
very close temporal proximity between
Petitioner’s objection to sexual harassing
conduct and her termination, stating that the
“natural inference” from the complaint is that
Mira “was terminated at least in part because
12 Pleadings note that Petitioner observed photographic
activity aimed at a narrow opening in her bedroom
window when she was partly unclothed.

20

she was underperforming,” court’s March 29,
2017 opinion.
The district court concluded that
Petitioner did not raise claims “across the line
from conceivable to plausible” while ignoring
direct evidence of inconsistent job review
feedback such as a pay raise about four months
before her termination. Resistance to evidence
suggests a predetermined outcome, with
evidence and reasonable inferences discarded
rather than weighed, much less liberally
construed. Its opinions contradict ample case
law that instruct a court to liberally construe pro
se pleadings and remain “alert to any conscious
bias that could affect decision-making,” citing
Vega v. Hempstead Union Free School District
(801 F.3d 72 (2d Cir. 2015)). “In making the
plausibility determination, the court must be
mindful of the ‘elusive’ nature of intentional
discrimination,” Vega. That case holds that
plaintiffs “usually must rely on ‘bits and pieces’
of information that support a “mosaic" of
intentional discrimination.
“Many [employment] cases are pro se, and
pro se cases are difficult to manage,” citing the
Honorable Denny Chin of the Second Circuit.
“Are there judges who do not like employment

21

cases? I have no doubt there are,” Chin,
Employment
Summary
Judgment
in
Discrimination Cases- A Judge’s Perspective,
New York Law School Law Review, Volume 57,
2012-2013. (Judge Chin presided in Mira v.
Argus Media)
Judge Donald, of the Sixth Circuit, holds
that federal courts are perceived as “hostile
venues
for
employment
discrimination
plaintiffs,” noting that many are selfrepresented. Courts “tend to chew plaintiffs up
and spit them out with rapidity, most often
before trial,” see Judge Donald and J. Eric
Pardue, “Bringing Back Reasonable InferencesA Short, Simple Suggestion for Addressing Some
Problems at the Intersection of Employment
Discrimination and Summary Judgment,” New
York Law School Law Review, Volume 57, 2012—
2013. Citing Federal Judicial Center data, they
found that “in the early 2000s, ninety-eight
percent of employment discrimination cases
disposed of by pretrial motion were decided in
favor of defendants, which was higher than the
rates for both personal injury and insurance
cases.”
the

US District Court Judge Mark Bennett, of
Northern District of Iowa, compares

22

employment discrimination cases to prisoner
rights cases before federal prison litigation
reform. “In Yogi Berra terms, it’s deja vu all over
again: ‘Plaintiffs claims lack merit,’ ‘Plaintiffs
claims are frivolous,’ and the newest Twom-bal
induced mantra, ‘Plaintiff s claims are
implausible’—all incantations heard with
stunning frequency in the federal district
courts,” Judge Bennett, see “From the ‘No
Spittin’, No Cussin’ and No Summary Judgment’
Days of Employment Discrimination Litigation
to the ‘Defendant’s Summary Judgment
Affirmed Without Comment’ Days: One Judge’s
Four-Decade Perspective,” New York Law
School Law Review, Volume 57, 2012—2013.
“When litigants seeking to enforce this
employment
nation’s
comprehensive
discrimination laws feel the need to flee our
federal courts—the very institution tasked by
Congress to hear these cases—something is
horribly amiss in our federal civil justice
system,” citing Judge Bennett.
Courts rely on pretexts such as “futility,”
“plausibility” or other constructs to impede or
shut down pro se cases. Twelve years after
Erickson v. Pardus, (551 US 89 - 2007) lower
courts need explicit reaffirmation of this Court’s

23

general mandate that courts must liberally
construe pro se litigants’ pleadings. However
inartfully pleaded, pro se pleadings should be
viewed liberally and held to a lesser standard
than those drafted by attorneys, see Haines v.
Kerner, 404 US 520-521 (Supreme Court, 1971).
This Court held in the still-binding Conley v.
Gibson, 355 US 41 (Supreme Court, 1957) that
no complaint may be dismissed for failure to
state a claim unless “it appears beyond doubt
that the plaintiff can prove no set of facts in
support of his claim which would entitle him to
relief.”
A district court abuses its discretion “by
resting its decision on a clearly erroneous finding
of a material fact, or by misapprehending the
law with respect to underlying issues in
litigation.” Quince Orchard Valley Citizens
Ass’n Inv. v. Hodel, 872 F. 2d 75 (4th Circuit,
1989).
While the district court characterized
Petitioner’s claims as “far-fetched,” a tide of
sexual harassment reports in 2017 document the
use of private investigators to discredit and
infiltrate the lives of alleged sexual harassment
victims; see “Harvey Weinstein's Army ofSpies,”
Ronan Farrow, New Yorker, November 6, 2017,

24

and “How Common are Harvey Weinstein’s
Investigation Tactics?’ Katie Kilkenny, Pacific
Standard, November 7, 2017.
Even as the district and circuit courts in
this case belittle and dismiss facts and
allegations of nonconsensual dissemination of
sexual images as “embarrassing video” or “far­
fetched” and lacking basis, US state legislatures
and appellate judges elsewhere recognize these
vile 21st Century harms. They have acted and
ruled accordingly.
CONCLUSION
This Court should grant certiorari as this
case concerns questions of nationwide
importance that merit full review. Allowing the
lower courts’ decisions to stand would affirm
adverse acts, potentially establish precedent and
lead to continued harms.
For the foregoing, the petition for writ of
certiorari should be granted.
Respectfully submitted,
Leslie Moore Mira
Pro Se Petitioner
PO Box 250379, New York, NY 10025
347-425-2578
leslie9078@yahoo.com

